1
No.

IN THE
SUPREME COURT OF THE UNITED STATES
Rosemary Garitv
APWU

PETITIONER

—RESPONDENT(S)

CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the accompanying
Petition for Certiorari, which was prepared using Century Schoolbook 12-point
typeface, contains 5,581 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the wordcount function of the word-processing system (Microsoft Word 2010) used to prepare
the document.
I declare under penalty of perjury that the foregoing is true and correct.

i

Executed on July 14, 2021.

i

s/Rosemary Garity
Rosemary Garity

